      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




September 9, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Jurisdiction D Medicare Payments for Selected Durable Medical
              Equipment Claims With the KX Modifier for Calendar Year 2007
              (A-09-09-00111)


Attached, for your information, is an advance copy of our final report on Jurisdiction D Medicare
payments for selected durable medical equipment claims with the KX modifier for calendar year
2007. We will issue this report to Noridian Administrative Services, LLC, the durable medical
equipment Medicare administrative contractor for Jurisdiction D, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-09-00111.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



September 16, 2010

Report Number: A-09-09-00111

Ms. Emy Stenerson
Vice President of DME Operations
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103-2146

Dear Ms. Stenerson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Jurisdiction D Medicare Payments for Selected
Durable Medical Equipment Claims With the KX Modifier for Calendar Year 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact James Kenny, Audit Manager, at (415) 437-8370, or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-09-00111 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Emy Stenerson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF JURISDICTION D
 MEDICARE PAYMENTS FOR
SELECTED DURABLE MEDICAL
EQUIPMENT CLAIMS WITH THE
     KX MODIFIER FOR
   CALENDAR YEAR 2007




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-09-09-00111
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare
Part B provides for the coverage of durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted
with four durable medical equipment Medicare administrative contractors (DME MAC) to
process and pay Medicare Part B claims for DMEPOS. These DME MACs replaced the Durable
Medical Equipment Regional Carriers. Also, CMS contracts with Palmetto Government
Benefits Administrators, LLC, to serve as the National Supplier Clearinghouse. The National
Supplier Clearinghouse is responsible for enrolling and reenrolling DMEPOS suppliers.

Under the statutory and policy framework of the Act, the Medicare National Coverage
Determinations Manual defines DME as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the KX
modifier on filed claims. The KX modifier indicates that the claim meets the Medicare coverage
criteria and the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, respiratory assist
devices also require documentation that a sleep study was performed before the date on the
physician’s order.

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction D to Noridian
Administrative Services, LLC (Noridian). Noridian assumed full responsibility for administering
the DME MAC work and began processing DMEPOS claims for Jurisdiction D as of
September 30, 2006.

Noridian processed approximately $2 billion in Medicare DMEPOS claims with calendar year
2007 dates of service. This audit focused on $99,661,670 of Medicare paid claims processed by
Noridian for therapeutic shoes for diabetics, continuous positive airway pressure systems,
respiratory assist devices, and pressure reducing support surfaces (groups 1 and 2) that included
the KX modifier.

OBJECTIVE

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Noridian had the required supporting documentation on
file.




                                                i
SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to Noridian had the required supporting documentation on file. Of the 100 sampled items,
suppliers had the required documentation on file for 33 items. Suppliers did not have the
required documentation on file for the remaining 67 items. As a result, Noridian made
unallowable payments totaling $5,941 for 67 of the 100 sampled items. Based on our sample,
we estimated that Noridian paid approximately $70 million to suppliers who did not have the
required documentation on file to support the DMEPOS items with dates of service in 2007.

The types of missing documentation included:

   •   physician’s order (40 of 100 items),

   •   use or compliant use followup documentation (28 of 86 applicable items),

   •   proof of delivery (18 of 100 items), and

   •   physician’s statement (4 of 14 applicable items).

For 18 of the 67 items, suppliers were missing multiple required documents.

Noridian did not detect these errors because Noridian’s electronic edits were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim.

RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $5,941 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the suppliers who did not meet the supplier standard for maintaining proof
       of delivery so that CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $70 million.




                                                  ii
AUDITEE COMMENTS

In its comments on our draft report, Noridian concurred with our recommendations and
acknowledged that the KX modifier is used inappropriately by suppliers. However, Noridian
stated that the KX modifier does not indicate that documentation is necessarily located in a
supplier’s files but only that the supplier can provide the documentation when requested.

Regarding the first, second, and fourth recommendations, Noridian described the actions it
intends to take in response to these recommendations. Regarding the third recommendation,
Noridian recommended that the Office of Inspector General (OIG) share with CMS information
on suppliers who did not meet the supplier standard for maintaining proof of delivery because
OIG reviewed the claims and has specific information on the suppliers.

Noridian’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The Local Coverage Determinations’ definition of the KX modifier is: “Specific Required
Documentation on File.” Adding the KX modifier to the claim indicates that the claim meets
Medicare coverage criteria and the supplier has the required documentation in its files. The only
documentation we requested when we visited suppliers was documentation required to be in the
suppliers’ files before they billed Medicare.

We provided Noridian with all the suppliers’ documentation for the sampled items, including a
reconciliation spreadsheet that summarized the errors. We continue to recommend that Noridian
notify CMS of the suppliers who did not meet the supplier standard for maintaining proof of
delivery.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Contracts for Processing Medicare Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Claims ...................................................... 1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          MISSING REQUIRED DOCUMENTATION ................................................................. 5
               Physician’s Order .................................................................................................. 5
               Use or Compliant Use Followup Documentation ................................................. 5
               Proof of Delivery .................................................................................................. 5
               Physician’s Statement ........................................................................................... 6

          KX MODIFIER SYSTEM EDITS .................................................................................. 6

          EFFECT OF UNALLOWABLE PAYMENTS ................................................................ 6

          RECOMMENDATIONS .................................................................................................. 7

          AUDITEE COMMENTS.................................................................................................. 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: ERROR DETAILS

          D: AUDITEE COMMENTS




                                                                     iv
                                                 INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers. Also, CMS contracts with Palmetto
Government Benefits Administrators, LLC, to serve as the National Supplier Clearinghouse.
The National Supplier Clearinghouse is responsible for enrolling and reenrolling DMEPOS
suppliers. CMS will revoke a supplier’s billing privileges if it finds that the supplier does not
meet the supplier standards (42 CFR § 424.57(c) and (d)). 1

Contracts for Processing Medicare Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction D to Noridian
Administrative Services, LLC (Noridian). Noridian assumed full responsibility for administering
the DME MAC work and began processing DMEPOS claims for Jurisdiction D as of
September 30, 2006. Noridian processes DMEPOS claims for Alaska, American Samoa,
Arizona, California, Guam, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana, Nebraska, Nevada,
North Dakota, Northern Mariana Islands, Oregon, South Dakota, Utah, Washington, and
Wyoming.

KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered. The
Medicare National Coverage Determinations Manual (Pub. No. 100-03, chapter 1, section
280.1) defines DMEPOS as equipment that can withstand repeated use, serves a medical
purpose, is generally not useful to a person in the absence of illness or injury, and is appropriate
for use in a patient’s home.

Contractors develop supplier manuals, Local Coverage Determinations (LCD), and Policy
Articles for covered DMEPOS items. These materials specify under what clinical circumstances

1
    Federal requirements referenced in this document are the ones that were in effect during our audit period.



                                                            1
the DMEPOS item is considered to be reasonable and necessary. For covered DMEPOS items
(including therapeutic shoes for diabetics (therapeutic shoes), continuous positive airway
pressure systems (CPAP), respiratory assist devices (RAD), and pressure reducing support
surfaces (groups 1 and 2) (PRSS)), 2 the LCDs require that a KX modifier be added to the claims
before they can be paid. By adding the KX modifier, the supplier attests that the claim meets the
Medicare coverage criteria and that the specific required documentation, which varies based on
the DMEPOS item, is on file at the supplier before submitting the claim to the DME MAC. This
documentation requirement includes the written physician’s order and proof of delivery that are
required for all DMEPOS, as well as additional documentation such as a sleep study for a RAD
claim.

Through supplier manuals, LCDs, and Internet postings, the contractors instructed the suppliers
to use the KX modifier only if the suppliers have the required documentation on file. However,
if the KX modifier is not used with claims for DMEPOS that require it, the claims will be denied.

This audit focused on claims paid by Noridian for therapeutic shoes, CPAPs, RADs, and PRSS.

    Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                      Orthotics, and Supplies Requiring the KX Modifier
   Documentation
 Required To Be on                                   Therapeutic
   File at Supplier            Required by              Shoes      CPAP   RAD PRSS
                       -Program Integrity
Physician’s Order
                         Manual (PIM),
(written, signed, and                                     X           X    X        X
                         Pub. No. 100-08, chapter 5
dated)
                       -LCDs
                       -42 CFR § 424.57(c)(12)
Proof of Delivery                                         X           X    X        X
                       -PIM, chapter 4
Statement of
                       -The Act, § 1861(s)(12)
Treating/Certifying
                        (A–C)                             X                         X
Physician Before
                       -LCDs and Policy Articles
Billing
Polysomnography
                       -NCD
(sleep study) Before                                                  X    X
                       -LCDs
Physician’s Order
Use or Compliant
Use Followup
Statement of           -LCDs                                          X    X
Physician and/or
Beneficiary



2
 These DMEPOS are included in the Level II Healthcare Common Procedure Coding System, which is a
comprehensive, standardized system that classifies similar medical products into categories for efficient claims
processing. It is the standardized coding system used for describing, identifying, and preparing claims for
DMEPOS.

                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the KX modifier was effective in ensuring that suppliers
of DMEPOS who submitted claims to Noridian had the required supporting documentation on
file.

Scope

Noridian processed approximately $2 billion in Medicare DMEPOS claims in Jurisdiction D
with calendar year 2007 dates of service. This audit focused on $99,661,670 of these Medicare
paid claims for therapeutic shoes, CPAPs, RADs, and PRSS that included the KX modifier.

We limited our review of internal controls to gaining an understanding of the contractors’
processing of selected DMEPOS claims that were submitted with the KX modifier. We did not
determine whether the sample items met other Medicare coverage criteria, such as medical
necessity.

We performed our audit from August 2009 through April 2010 and conducted fieldwork at
suppliers’ offices in 11 States.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    interviewed Noridian officials concerning the manual and electronic claims processing
         procedures for claims for therapeutic shoes, CPAPs, RADs, and PRSS with the KX
         modifier and edits in the claims processing system to ensure that claims were
         adjudicated;

    •    interviewed Noridian officials concerning the education and training specific to the KX
         modifier that Noridian provided to the suppliers of therapeutic shoes, CPAPs, RADs, and
         PRSS;

    •    selected a simple random sample of 100 items from four categories of DMEPOS
         (Appendix A);

    •    made unannounced visits to 83 suppliers 3 to obtain their documentation supporting the
         use of the KX modifier;

3
 Thirteen of the eighty-three suppliers had two items in the sample, and one supplier had three items in the sample.
One supplier we visited and two suppliers we did not visit were under investigation, and the items from these
suppliers were not considered errors.


                                                          3
      •    reviewed the suppliers’ documentation for the sample items to determine whether it met
           the documentation requirements for using the KX modifier; and

      •    requested that Noridian’s medical review staff review the documentation provided by the
           suppliers for the sampled items.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS who submitted claims
to Noridian had the required supporting documentation on file. Of the 100 sampled items,
suppliers had the required documentation on file for 33 items. Suppliers did not have the
required documentation on file for the remaining 67 items. As a result, Noridian made
unallowable payments totaling $5,941 for 67 of the 100 sampled items. Based on our sample,
we estimated that Noridian paid approximately $70 million to suppliers who did not have the
required documentation on file to support the DMEPOS items with dates of service in 2007.

The types of missing documentation included:

      •    physician’s order (40 of 100 items),

      •    use or compliant use followup documentation (28 of 86 applicable items),

      •    proof of delivery (18 of 100 items), and

      •    physician’s statement (4 of 14 applicable items). 4

Additional details on the results of the sampled items are provided in Appendixes B and C.

Noridian did not detect these errors because Noridian’s electronic edits were not effective for
determining whether suppliers had the required documentation on file when they used the KX
modifier on claims. The edits could only determine whether the required KX modifier was on
the claim.




4
    For 18 of the 67 sampled items, suppliers were missing multiple required documents.


                                                          4
MISSING REQUIRED DOCUMENTATION

Physician’s Order

The PIM, chapter 5, sections 5.2.1 and 5.2.2, state that all DMEPOS suppliers are required to
keep on file a physician’s order. The treating physician must sign and date the order. In
addition, section 5.2.3 states that if the supplier does not have a written order signed and dated by
the treating physician before billing Medicare, the item will be denied.

For 40 of the 100 items, suppliers did not have a physician’s order on file to support billing for
the DMEPOS. In all 40 instances, at least one of the following deficiencies occurred: the order
was missing, the order was not signed and dated by the physician, or the DMEPOS item was not
listed on the order.

Use or Compliant Use Followup Documentation

The LCDs for the CPAP effective March 1, 2006, and July 1, 2007, and the LCDs for the RAD
effective April 1, 2006, and July 1, 2007, state that, for an E0601 (CPAP) and an E0470 (RAD)
to be covered beyond the first 3 months of therapy, the supplier must ascertain no sooner than the
61st day after initiating therapy that the CPAP is being used and that the RAD is being
compliantly used. For the CPAP, either the beneficiary or the treating physician must confirm
that the beneficiary is continuing to use the CPAP, and the supplier must maintain
documentation that the requirement has been met. For the RAD, the supplier must obtain signed
statements from both the treating physician and the beneficiary stating that the RAD is being
compliantly used. 5 The LCDs state that continued coverage of the device will be denied if the
requirements are not met.

For 28 of the 86 applicable items in our sample, suppliers did not have the use or compliant use
followup documentation on file to support billing for the DMEPOS. In all 28 instances, at least
1 of the following deficiencies occurred: the use or compliant use followup documentation was
missing, the use or compliant use followup was done within 60 days after initiating therapy, the
statement(s) required to be completed by the treating physician and/or the beneficiary were
missing for the RAD, or the item was billed after the first 3 months but before the supplier
obtained use or compliant use followup documentation.

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26, requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

5
    The LCD defines “compliantly used” for a RAD as an average usage of 4 hours out of 24 hours.


                                                         5
For 18 of the 100 items, suppliers did not have proof of delivery documentation on file to support
billing for the DMEPOS. In all 18 instances, at least 1 of the following deficiencies occurred:
the delivery documentation was missing, the delivery documentation was not signed and dated
by the beneficiary or his or her designee, or the documentation for shipped items such as tracking
numbers or the supplier’s invoice was missing.

Physician’s Statement

Pursuant to the Act, § 1861(s)(12)(A), the physician must certify that the patient meets specific
criteria for therapeutic shoes. The LCDs and Policy Articles for therapeutic shoes and PRSS,
groups 1 and 2, state that DMEPOS items are covered if the supplier obtains a signed and dated
statement from the certifying or treating physician 6 saying the patient meets specific criteria. 7
The physician’s statement must be signed and dated some time during the year before the date of
service for therapeutic shoes, and the Policy Articles state that the items will be denied if the
requirements are not met.

For 4 of the 14 applicable items in our sample requiring a physician’s statement, suppliers did
not have the physicians’ statements on file to support billing for the DMEPOS. In all four
instances, the physician’s statement of medical need was missing or was incomplete.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSS when the “specific required documentation is on
file.” Use of the KX modifier constitutes a statement that the suppliers have the documentation
on file that the policy requires for the particular item or service.

Noridian had electronic edits to evaluate the claims submitted by the DMEPOS suppliers.
However, the edits were not effective for determining whether suppliers had the required
documentation on file when they used the KX modifier on claims. The edits could only
determine whether the required KX modifier was on the claim.

EFFECT OF UNALLOWABLE PAYMENTS

For 67 of the 100 items in our sample, suppliers who did not have the required documentation on
file to support their use of the KX modifier received $5,941 in payments. Based on our sample,
we estimated that Noridian made approximately $70 million in unallowable Medicare payments
to DMEPOS suppliers with dates of service in 2007.



6
 The certifying or treating physician is the physician who treats the underlying condition that requires the use of the
DMEPOS.
7
 For therapeutic shoes, LCDs and Policy Articles were effective March 1, 2006, and July 1, 2007. For PRSS
(group 1 only), an LCD and a Policy Article were effective January 1, 2007. For PRSS (group 2 only), LCDs were
effective March 1, 2006, and July 1, 2007, and a Policy Article was effective March 1, 2006.


                                                           6
RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $5,941 in payments for specific DMEPOS items claimed for which the
       suppliers did not have the required documentation,

   •   review other payments for DMEPOS related to our unallowable sample items and recover
       any additional unallowable payments,

   •   notify CMS of the suppliers who did not meet the supplier standard for maintaining proof
       of delivery so that CMS can take appropriate action, and

   •   develop a corrective action plan to improve the effectiveness of the KX modifier and
       potentially save an estimated $70 million.

AUDITEE COMMENTS

In its comments on our draft report, Noridian concurred with our recommendations and
acknowledged that the KX modifier is used inappropriately by suppliers. However, Noridian
stated that the KX modifier does not indicate that documentation is necessarily located in a
supplier’s files but only that the supplier can provide the documentation when requested.

Regarding the first, second, and fourth recommendations, Noridian described the actions it
intends to take in response to these recommendations. Regarding the third recommendation,
Noridian recommended that the Office of Inspector General (OIG) share with CMS information
on suppliers who did not meet the supplier standard for maintaining proof of delivery because
OIG reviewed the claims and has specific information on the suppliers.

Noridian’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The LCDs’ definition of the KX modifier is: “Specific Required Documentation on File.”
Adding the KX modifier to the claim indicates that the claim meets Medicare coverage criteria
and the supplier has the required documentation in its files. The only documentation we
requested when we visited suppliers was documentation required to be in the suppliers’ files
before they billed Medicare.

We provided Noridian with all the suppliers’ documentation for the sampled items, including a
reconciliation spreadsheet that summarized the errors. We continue to recommend that Noridian
notify CMS of the suppliers who did not meet the supplier standard for maintaining proof of
delivery.




                                               7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS) items for the year ending December 31, 2007, that DMEPOS suppliers claimed for
payment using the KX modifier under Medicare Part B.

SAMPLING FRAME

The sampling frame consisted of 1,171,204 line items totaling $99,661,670 for the year ending
December 31, 2007. These items were for specific categories of DMEPOS (therapeutic shoes for
diabetics, continuous positive airway pressure (CPAP) systems, respiratory assist devices
(RAD), and pressure reducing support surfaces (groups 1 and 2) (PRSS)) claimed for payment
using the KX modifier under Medicare Part B.

SAMPLE UNIT

The sample unit was a line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG (Office of Inspector General), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame. After generating 100 random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of potentially unallowable
payments.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                 SAMPLE RESULTS

                                                           Number of        Value of
 Frame                      Sample         Value of        Unallowable     Unallowable
   Size     Frame Value      Size          Sample           Payments        Payments
1,171,204   $99,661,670       100           $9,303             67            $5,941



                  ESTIMATES OF UNALLOWABLE PAYMENTS
                (Limits Calculated for a 90-Percent Confidence Interval)

                          Point estimate     $69,577,013
                          Lower limit         52,575,987
                          Upper limit         86,578,040
                                                    APPENDIX C: ERROR DETAILS

                                                       DMEPOS            Total         Total       CPAP          TS*         RAD        PRSS         Line Items
                    TYPES OF                            Required           in        Number        Related      Related     Related    Related       With Only
        MISSING DOCUMENTATION                              for          Sample       of Errors     Errors       Errors      Errors     Errors        One Error
 Physician’s Prescription/Order                            All            100               40           27           5           7          1                24
 Proof of Delivery                                         All            100               18           15           1           2          0                 6
 Use or Compliant Use Followup Documentation           CPAP/RAD            86               28           22           0           6          0                16
 Sleep Study                                           CPAP/RAD            86                0            0           0           0          0                 0
 Physician’s Statement                                  TS, PRSS           14                4            0           0           0          4                 3

  Total Errors (Duplicated Count)                                                            90           64           6         15            5             49




                  CATEGORIES OF                              Dollars      Items       Items        Items        Dollars       1         2            3      Multiple
        DURABLE MEDICAL EQUIPMENT                            Tested       Tested     Allowed†      Errors      in Error     Error     Errors       Errors   Errors ‡
 Continuous Positive Airway Pressure Systems                $4,617.54         70           22          48      $3,015.75        36         8            4         12
 Pressure Reducing Support Surfaces (groups 1 and 2)         1,918.79          5            1           4       1,662.90         3         1            0           1
 Respiratory Assist Devices                                  1,882.28         16            6          10         843.57         6         3            1           4
 Therapeutic Shoes for Diabetics                               884.77          9            4           5         418.42         4         1            0           1

  Totals                                                    $9,303.38         100            33         67     $5,940.64       49        13            5           18


*Therapeutic shoes are a one-time purchase.
†Three of these thirty-three sample items were for suppliers who were under investigation and were not considered errors.
‡Eighteen of the sixty-seven unallowable sample items had multiple errors.

TS = therapeutic shoes for diabetics
                                                                                                              Page 1 of2
                            APPENDIX D: AUDITEE COMMENTS




 ~
 NOR/DIAN" 	
 _-..=                                                                                      Medicare
 900 42nd Street SOUlh
 Fargo, NO 58103

July 22, 20 10

Lo ri A. Ah lstrand
Region al Inspector General for Audit Services
omc.; o f A ud it Services, Reg ion IX
90- 111 Street Suite 3-650
Sml FnUlcisco, CA 941 03

Dear   ~oIs.   Ahlstrand.

NAS has reviewed the June 24. 2010 draft repon A-09-09-oo 11 1 entitled Review ofJ1Irisdiction D
MedicarePaymemsfor Selected DurableMedical Equipment Claims With the KX Modljier for
Calendar Year 2007. We agre.: inappropriat e ll.~age of the KX modifier i ~ a wides pread probl.:: m am ong
Ol\'IE su ppliers and other Pan B suppliers.

We co ncur with Ihe recomm t:ndalion~ outlined in the report and thai th e KX modi fi er is used
inappropriately by suppliers. For th is reason, NAS has focused additional education efforts on th e
app.-o p.-iate: l~~a!;e: of the: I< X lllodific:.- Ihroughout Our currcnt OME contmct, which ~tartcd on Septc:mber
30, 2006. Since the time frame tor wh ich claims were rev iewed lor this audit (calendar year 2007), many
pooilive steps have been taken 10 imp rove the appropri ate usc o f the KX lllodifier-. "Ille fou r OME MACs
joint ly han: ro:viso:d 17 Local Coverage I)c:terlllinations to r;:qu ire the KX modifier and to better de fi no:
appropriate KX modifier usage; these revised policies took ellect 011 rkc.::m ber I, 2009, Also NAS
 Provide r Outreach and Edu cation staff have abo addressed th is modifier at nearl y ever), educational
ev.::nt. NAS has written num.::rous educati onal art icl.::s on this topic.

[t is abo important to note that supplio:n; we re asked for the documentation who:n th o: 010 was
physically at t heir location and may not have had all the doe urll\~ntati on to support the usage of the KX
modifi er available at the t ime o f the visi t. When th e DM E j\"ACs do clai m revicw, we allow time forthc
su pplier to obtai n the req uired medi cal doc wll enlation. '111e K X modifi er does not mean that the
doc unK'Iltation is necessaril y located in the supplier's fil es, but that th ey ean provide this when
requeslcd. "1Iig may involve obtai ning copies of the phys ician'5 documentati on.

0 10 Recommendations and NAS ' Responses

• 	 Recovcr th e $5,941 in paym ents fo r specific OM EPOS items claimed for which the suppli ers di d no t
    have the required docmn entat ioll.
       o 	 NAS will recover the ullallowable $5,941 in payme nts for the claims reviewed which were
           fo und to not have the required docum cntati()Il . NAS will contact the O IG for the listin g of
           these claims.



,.",,,,
                                           A   =     Ca<nUCl..d
                                        Co........ 8E/ln l er.otd,i ....y 	                              ,... 

                                                                                                            Page 2 of2




• 	 Review other payments for D!\.IEPOS related 10 our unallowable sample items lUld reco ver any
    additional unallowable pa yments_
        o 	 NAS will review re lated D)"IEPOS items billed for the Imallowable claims and will rcoover
            any additional payments found 10 be unallowable
• 	 Notify eMS of th e ~u ppli<:n; who did not meet th e supplier ~ tandard for maintaining proof of
    delivery so thaI eMS can take appropriate action.
        o 	 For those suppliLTS who Wt'TC found 10 not have proof of delivery for the reviewed claims,
            NAS r(:comm cnds that this information he ~h arcd with eMS by th e 01G; eMS can Ih(:n relay
            the concern to the National Supplier Clearingh ouse (NSC) Supplier Audit and Compliance
            Un it for review of Ihe su pplier standard proof of delivery violations_ NAS believes that this
            ~llOuld be eoordinatt:d by tho:: OIG ~ they havo:: revio::wed the claim~ and ha vo:: tho:: spo:cific
            intQnnation on the suppli ers in volved. It would be necessary tor the OIG to share more
            details with NAS ror us to be llbk to notify Cl'>oIS of th e ~ pecific ~ upplicrs with proof of
            deli very coneern~. A direct exchange orinronnation between the OIG and Ci\·IS may be
            more etJective lU1d result in a timelier referral to the NSC.
• 	 Develop a eorrective action plan to improve th e eiTeetivL'Iless of the KX modifier and polcnlially
    san: an o::stimated $70 million.
        o 	 NAS · will develop a proposal wi th our recommendations on ho w to address this problem.
            Recommendations ma y include additional pre-pa y review of claims with the KX modifier as
            outlined in our curren! 2010 Medical Review Strategy, additional education to suppliers on
            this topi c and other ideas of how to address this program wide I-okdieare conc ern. ·111is
            propo~al will be shared with our Contractor'S Technicall~epreso::ntative. Edwa rd Lain, h y
            September 15. 2010. We will also recap what eil"ons have been taken to address KX modifier
            usage throughout calendar year 2007 :md ongoing to demonstrate NAS' focus Oil addres~ing
            this concern.

Hcfore each activity is stlutoo by NAS. we will infoml our CQTR to ens ure that eMS agrees that NAS
can procced w ith the recommended actions and that funding allows for th e activity.




Please contact me by phone at 701 -282-1356 or by email al emv.stenersont@noridian.com with any
questions regarding NAS· response.

Sincerely,




/Emy Stenerson/
NAS Vice Presidem
Jurisdiction D I'roj;:cll\'larlager




,.",,,,
                                          A   =     Ca<nUCl..d

                                       Co........ 8E/ln l er.otd.i ....y                               ,-.. 

